January 29, 2009

STEVEN J. FORTE
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

JESUS GALVEZ
DISTRICT MANAGER, CARIBBEAN DISTRICT

SUBJECT: Audit Report – Timeliness of Mail Processing at the San Juan Processing
         and Distribution Center (Report Number NO-AR-09-002)

This report presents the results of our audit focusing on the timeliness of mail
processing at the San Juan Processing and Distribution Center (P&DC), located in the
Caribbean District, New York Metro Area (Project Number 08XG031NO000). The
report responds to a Congressional inquiry regarding concerns about mail service for
the U.S. Virgin Islands (USVI). Our objective was to determine if the San Juan P&DC
timely processed mail for the USVI. This audit addresses operational risk. See
Appendix A for additional information about this audit.

Conclusion

While there was some decrease in delayed mail during fiscal year (FY) 2008, the San
Juan P&DC1 experienced periods of high delayed mail volumes during FYs 2006 and
2007. Difficulties in timely processing the mail led to mail delays, service declines, and
customer complaints. First-Class Mail® (FCM) and Periodicals delays were the largest
contributors to the overall increase in delayed mail during those 2 years. Compared to
other similarly sized sites, the San Juan P&DC had the largest amount of delayed
Periodicals and the second largest amount of FCM. However, our review found that as
of Quarter 3, FY 2008, the San Juan P&DC was able to decrease delayed mail by 53
percent.

Opportunities to improve the timely processing and tracking of mail include re-
configuring the Universal Sorter Machine to minimize damage to parcels, reducing or
eliminating misdirected mail, improving mail throughput on machines, processing local
mail at the USVI, accurately identifying and reporting delayed mail, and improving


1
 In this report, references to the San Juan P&DC include both the San Juan P&DC and the Detached Mail
Distribution Unit (DMDU). The DMDU is an annex of the San Juan P&DC.
Timeliness of Mail Processing at the                                                             NO-AR-09-002
  San Juan Processing and Distribution Center


coordination with U.S. Customs. During the audit, management began to take
corrective actions in a number of areas.

Delayed Mail Trends and Site Comparisons

While some delayed mail has decreased, in recent years the San Juan P&DC has
experienced periods of high delayed mail volumes. The total amount of delayed mail
increased from 6 million pieces in FY 2005 to 24 million in FY 2006, and to 28 million in
FY 2007. As of Quarter 3, FY 2008, delayed mail totaled 13 million pieces for the year.

Delays in FCM and Periodicals caused the majority of the increases in delayed mail,
with FCM delays increasing nearly 59 percent and Periodicals delays increasing by over
71 percent. However, improvements were made during the first three quarters of
FY 2008; specifically, delayed FCM decreased by 90 percent from Quarter 1 to
Quarter 3 and delayed Periodicals decreased by 63 percent. Over the same period, the
San Juan P&DC also experienced an 88 percent decrease in delayed Priority Mail®.
See Appendix B for our detailed analysis of this topic.

We compared the amount of delayed mail in the San Juan P&DC to similarly sized
Group 4 sites.2 From FYs 2006 to 2007, similarly sized sites decreased delayed mail by
15 percent while delayed mail for the San Juan P&DC increased nearly 16 percent.
This delayed mail represented over 6 percent of the San Juan P&DC’s total volume for
FY 2007.

Specifically, compared to the 53 similarly sized sites by mail class in FY 2007, the San
Juan P&DC:

    •   Was the lowest performer in processing Periodicals.
    •   Was the second lowest performer in processing FCM.
    •   Ranked 49th in processing Priority Mail.
    •   Ranked 42nd in processing Standard Mail®.
    •   Ranked 48th in having the most delayed mail.

See Appendix C for our detailed analysis of this topic.

Machine Capacity

The San Juan P&DC generally had sufficient machine capacity but could better use it to
process its mail in a timely manner.

    •   Automated Flat Sorting Machine 100 (AFSM 100) summary reports and End-Of-
        Run (EOR) data indicated ample machine availability existed to process the mail.

2
 The San Juan P&DC is a Group 4 processing plant. There are a total of 53 plants considered to be Group 4s based
on the volume of mail processed.


                                                       2
Timeliness of Mail Processing at the                                                                  NO-AR-09-002
  San Juan Processing and Distribution Center


         However, productivity was below the national average and machine use was only
         54 percent of goal. Increasing machine use to 80 percent of goal would ensure
         timely processing of all flat mail,3 including the delayed flats.

    •    Employees used the Small Parcel Bundle Sorter (SPBS) 99 percent of the time
         when in operation mode and operated at a productivity rate higher than the
         national average. However, it only operated at 67 percent of goal. Using
         existing staff and increasing the hours of operation on Mondays and Fridays
         when the barges arrive with mail would allow the facility to realize a 40 percent
         decrease in Periodicals delays. During our audit, area and district management
         agreed to conduct a Mail Arrival Profile to determine proper staffing and
         scheduling levels for this mail processing equipment.

See Appendix D for our detailed analysis on this topic.

Other Efficiency Opportunities

    •    Damaged Mail - The Universal Sorter Machine damaged some oversized parcels
         and Priority Mail, which resulted in untimely processing. The sharp turns and
         drop offs as mail moved on the machine caused the damage. Before further
         processing could take place, this mail had to be repaired or the contents
         manually repackaged. We observed a backlog of mail waiting for repair,
         contributing to mail delays. Additionally, during the repair process, customers
         were not notified as to why their mail was damaged or delayed, though prior to
         the conclusion of our audit, management began to provide such notification. See
         Appendix E for additional information and photographs related to this topic.

    •    Misdirected Mail - Misdirected mail contributed to mail delays. Parcels and
         Periodicals processed at the DMDU were barged to the USVI once a week.
         Under the best circumstances, mail misdirected to either St. Thomas or St. Croix
         could then wait an additional 7 days to be redirected to the correct island
         because of transportation constraints. If employees did not timely unload the
         misdirected mail or promptly catch the mislabeling, the delay could be 14 days or
         longer.

         We observed a container of parcels and Periodicals addressed to St. Croix which
         was mislabeled and sent to St. Thomas. Since no direct transportation exists
         between these islands, this mail was returned to the San Juan DMDU by barge
         for redirection back to St. Croix, also by barge. See Appendix F for additional
         information and photographs related to this topic.




3
  Any mailpiece not categorized as a card or letter with a minimum length of 11 1/2 inches and height of 6 1/8 inches
that does not exceed a thickness of 3/4 of an inch.


                                                          3
Timeliness of Mail Processing at the                                                              NO-AR-09-002
  San Juan Processing and Distribution Center


    •   Local Mail - Opportunities existed to improve the timely processing and efficiency
        of local letter mail by allowing employees to process it solely on the USVI. All
        letter mail originating in the USVI4 is processed at the San Juan P&DC in order to
        go through the Biohazard Detection System (BDS).5 This local letter mail is
        transported by air, the most expensive mode of transportation. This procedure
        increases handling and eliminates the local postmark. If, after considering all the
        potential risks, the Postal Service waived the BDS requirement, this limited
        amount of mail (approximately 3,300 pieces per day) could remain in the USVI
        for processing.

        We benchmarked the U.S. Territories of Guam and American Samoa and found
        that they cancel their own local letter mail without the benefit of BDS. See
        Appendix G for further information on this topic.

Human Resource Capacity

The San Juan P&DC had more than enough employees to process its workload. In
FY 2008, the San Juan P&DC ranked 41st largest in first handling pieces (FHP) volume
but 4th highest in workhours among similarly sized sites. This comparison showed the
San Juan P&DC used more workhours than necessary to process its workload. We
also found that in terms of FHP productivity, the San Juan P&DC ranked 51st out of 52
similarly sized sites in FY 2008. The San Juan P&DC productivity rate was 575 pieces
per hour (PPH) compared to an average of 965 PPH for similarly sized sites. In order to
achieve the average FY 2008 productivity rate of 965 PPH, the San Juan P&DC would
need to reduce workhours by 348,540, or the equivalent of 199 employees.

Internal Controls

Opportunities existed for the San Juan P&DC to improve internal controls over
identifying and reporting delayed mail. Providing managers with accurate information
on delayed mail will allow them to make appropriate mail processing decisions and
ensure mail is processed timely.

Specifically, employees:

    •   Did not correctly record some delayed mail in the Web Mail Condition Reporting
        System (WebMCRS). For example, mail was not cleared from the manual letter
        cases in time for dispatch and was not recorded as delayed.

    •   Did not count co-mingled containers of Periodicals and Standard Mail as
        delayed.

4
  Even local letter mail sent from one address to another address on the same island was sent to the San Juan P&DC
for cancellation and then returned back to the USVI the following day for delivery.
5
  A special set of equipment that acts as an early warning system for the detection of biohazards within the P&DC
environment.


                                                        4
Timeliness of Mail Processing at the                                                                   NO-AR-09-002
  San Juan Processing and Distribution Center



    •    Counted in pounds, rather than pieces, making it necessary to estimate mail
         inventory and more difficult to make accurate daily mail processing decisions at
         the San Juan P&DC.

    •    Did not consistently color-code arriving mail or date and time-stamp it upon
         arrival.

    •    Did not enter mail that arrived at the facility past the intended date of delivery into
         the WebMCRS Report as late arriving volume.

See Appendix H for our detailed analysis on this topic.

U.S. Customs6

Opportunities existed to improve procedures for tracking mail held in U.S. Customs.
Although San Juan used its Military International Dispatch Accountability System7 to
track Registered and Express Mail® as they were processed through U.S. Customs, it
did not track other types of mail. As a result, the San Juan P&DC could not readily
account for all mail held by U.S. Customs. However, U.S. Customs officials in San Juan
maintain a hand-written log of every package they hold for further processing. This
information could assist the Postal Service in tracking this mail and ensuring it is not
further delayed once it re-enters the mail stream.

When we brought this issue to their attention, Postal Service officials took action to
increase communications with U.S. Customs officials on mail they detain and hold for
inspection and collection of duties. As a result, the Postal Service will receive a copy of
the U.S. Customs log on a regular basis.

Criteria

The President’s Commission on the United States Postal Service report, dated July 31,
2003, states that the mission of the Postal Service is

          . . . to provide high-quality, essential postal services to all persons and
          communities by the most cost-effective and efficient means possible at
          affordable and, where appropriate, uniform rates.




6
  U.S. Customs and Border Protection within the Department of Homeland Security is responsible for keeping
America’s borders safe and secure. One of their duties is facilitating the flow of legitimate trade and travel.
7
  The computerized system dispatches assignments, selects routes, and receives international mail.


                                                           5
Timeliness of Mail Processing at the                                                              NO-AR-09-002
  San Juan Processing and Distribution Center


Title 39, U.S.C., Part 1, Chapter 4, § 403, states:

         The Postal Service shall plan, develop, promote, and provide
         adequate and efficient postal services at fair and reasonable rates
         and fees.

Causes

We identified several factors that adversely affected the San Juan P&DC’s ability to
process mail timely.

Specifically, the Postal Service did not:

    •    Optimize SPBS and AFSM use at peak volume periods.
    •    Ensure proper design of the feed system on the Universal Sorter Machine.
    •    Maintain accountability over dispatch operations.
    •    Consider processing local mail at the respective islands.
    •    Train personnel on properly identifying delayed mail and recording mail volumes
         as outlined in the WebMCRS Training Guide.

Effect

Mail delays resulted in increased customer complaints and negative media attention
and had the potential to impact customer service. For example, the number of
complaints received for the first three quarters of FY 2008 for the Caribbean District was
10 percent higher than the total complaints received in FY 2007. Complaints on mail
issues represented 85 percent of the complaints for FY 2008. There were several
media articles from 2006 to 2008 chronicling poor customer service in the USVI.
Delayed mail has also the potential to negatively impact service scores once the USVI
is measured by the External First-Class Measurement System.8

To improve timely processing of mail for the U.S. Virgin Islands, we recommend the
District Manager, Caribbean District:

1. Monitor delayed mail on a daily basis and develop action plans, if necessary, to
   ensure timely processing of mail for the U.S. Virgin Islands.

2. Develop and submit a request to modify the Universal Sorter Machine to reduce
   damaged mail.

3. Assign accountability to ensure that dispatches to the islands are accurate and
   expedite turn-around time of any mail that is sent to the wrong island.

8
 An independent system that measures FCM performance from the time mail enters the mailstream until it is
delivered. Future plans call for service measurements from every ZIP Code®.


                                                        6
Timeliness of Mail Processing at the                                          NO-AR-09-002
  San Juan Processing and Distribution Center



4. Increase the Small Parcel Bundle Sorter’s and Automated Flat Sorter Machine’s
   window of operation during peak volume periods.

5. Ensure employees are properly trained to identify delayed mail and ensure that all
   mail is accurately reported on Web Mail Condition Reporting System.

To improve timely processing of mail for the U.S. Virgin Islands, we recommend the
Vice President, New York Metro Area Operations:

6. Consider and weigh the benefits of service over risks to allow the U.S. Virgin Islands
   to keep and cancel local letter mail as is done in other U.S. Territories.

Management’s Comments

Management agreed with the findings and recommendations in the report and will
complete all actions by the end of FY 2009. Management strengthened processes and
developed action plans to monitor mail and reduce delayed mail. Management modified
the Universal Sorter Machine to minimize parcel damage and implemented
around-the-clock parcel repair to improve reentry into the mailstream. Management
implemented a process to monitor and account for mail transported between the USVI
and the San Juan P&DC and assigned accountability to ensure timely and accurate
dispatching. Management also adjusted staffing and expanded the operational window
of the SPBS by 3 hours to coordinate with surge volumes when barges arrive, and they
conducted training on color coding and the WebMCRS. Additionally, management
considered whether to allow the USVI to keep and cancel local letter mail, and as a
result will conduct a feasibility study to determine whether it is cost-effective to deploy
BDS equipment in the USVI. See Appendix I for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and the corrective actions should
resolve the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                                7
Timeliness of Mail Processing at the                                      NO-AR-09-002
  San Juan Processing and Distribution Center


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Anthony M. Pajunas
    William J. Schnaars
    Monica A. Hand
    Priscilla M. Maney
    Katherine S. Banks




                                                8
Timeliness of Mail Processing at the                                                        NO-AR-09-002
  San Juan Processing and Distribution Center


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Territories of Puerto Rico and the USVI are located in the Caribbean District in
the New York Metro Area. The Caribbean district is serviced by ZIP Codes 006, 007,
and 009, while the three USVIs are serviced by ZIP Code 008. The map below shows
the New York Metro Area districts by three-digit ZIP Code.



  NEW YORK METRO AREA
  Customer Service Districts


                                                  Westchester
                                                105-109, 124-127




       Northern New Jersey                                      New York
        070-076, 078, 079                                  090-098,100-102,104




                                                                            Long Island
                                                                          005,115,117-119

   Central New Jersey
     077, 085-089
                                             Triboro
                                         103,110-114,116


                                                                         Caribbean
                                                                          006-009




The San Juan, Puerto Rico P&DC, DMDU, and the Air Mail Facility (AMF) process and
distribute mail to and from the USVI.

The San Juan P&DC is a multi-level facility that opened in 1966 and has an area of over
343,149 total square feet with 211,830 square feet of interior space. This facility
processes all letter mail and 5-digit ZIP Code flats for the USVI. This P&DC processed
over 433 million FHP and used 842,892 workhours in FY 2007. The San Juan DMDU
was opened in 1989 and has an area of over 270,636 total square feet with 58,660
square feet of interior space. This facility is an annex of the San Juan P&DC and
processes Standard Mail, parcels and 3-digit ZIP Code Periodicals mail bundles for the
USVI. These two facilities have 368 bargaining unit employees.




                                                      8
Timeliness of Mail Processing at the                                                                     NO-AR-09-002
  San Juan Processing and Distribution Center


The San Juan AMF opened in 1990 and has an area of over 155,875 total square feet
with 46,000 square feet of interior space. The AMF has 107 bargaining unit employees.
This facility receives Express Mail, Priority Mail, and First-Class inbound mail from the
USVI. The U.S. Customs and Border Protection operation is also located at this facility.

The USVI include the islands of St. Thomas, St. John, and St. Croix. The USVI have
five post offices and seven finance stations with approximately 50,281 delivery
addresses. St. Thomas and St. Croix each have an AMF. The USVI do not have any
mail processing equipment in any of its postal facilities and have 192 bargaining unit
employees.

All First-Class letter mail originating in the USVI is sent to the San Juan P&DC for
processing through the BDS. However, all intra-island9 non-letter mail remains in the
USVI for processing.

The USVI lie outside the Customs Territory of the United States (CTUS),10 therefore
even though domestic rates apply in the USVI, mail originating in the USVI and
addressed for delivery inside the CTUS was subject to U.S. Customs clearance
procedures which include the assessment of duties.11

Several years ago, the residents of the USVI began complaining about poor mail
service and generated negative media attention. This negative media attention
expanded during calendar years 2006 through 2008. On May 1, 2008, Congressman
Danny K. Davis, Chairman Federal Workforce, Postal Service, and the District of
Columbia and Congresswoman Donna M. Christensen, USVI Delegate to Congress,
requested that the OIG evaluate mail service for the USVI and recommend potential
improvements.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if the San Juan P&DC timely processed mail for the
USVI. To accomplish this objective we reviewed selected mail processing operations in
the Caribbean District at the San Juan P&DC, DMDU, AMF, and other locations as
needed. We also reviewed the U.S. Customs examination of the mail process from the
USVI.

We used computer-processed data from the Web Enterprise Information System, Web
EOR System, WebMCRS, Enterprise Data Warehouse and Management Operating
Data System (MODS). We pulled data from October 1, 2004, through August 31, 2008,
but did not test controls over these systems. However, we checked the reasonableness
of results by confirming our analysis and results with management and multiple data
sources. In addition, we relied on OIG audits of Postal Service systems.

9
  Mail that originates and destinates on the same U.S. Virgin Island (e.g., St. Thomas to St. Thomas).
10
   The 50 states, the District of Columbia, and Puerto Rico.
11
   Import tax.



                                                          9
Timeliness of Mail Processing at the                                                      NO-AR-09-002
  San Juan Processing and Distribution Center



We conducted this performance audit from May 2008 through January 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on December 11, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

                                Final Report
                    Report          Date
 Report Title       Number                                            Report Results
Delayed Mail at     NO-AR-        August 14,    During FY 2007, the North Texas P&DC had difficulty timely
the North Texas     08-006          2008        processing all mail types, resulting in significant increases in
Processing and                                  delayed mail volumes. We found that supervision was
Distribution                                    inconsistent, the operating plan did not include a current
Center                                          mail arrival profile, flat operations were inadequately staffed,
                                                and bottlenecks of mail and equipment prevented trucks
                                                from leaving on time. We recommended management
                                                ensure supervisors oversee mail processing, develop and
                                                implement a mail arrival profile, ensure Standard Mail and
                                                Periodicals were staged and processed using first-in, first-
                                                out procedures, rearrange Delivery Bar Code Sorters or
                                                move sort programs to different sorting equipment to
                                                eliminate bottlenecks in the dispatch of mail, and direct sack
                                                mail operations be returned to the Dallas Bulk Mail Center
                                                (BMC). Management agreed with our recommendations.
Delayed Mail at     NO-AR-         March 13,    This audit confirmed that since FY 2005, the Waco
the Waco            08-002           2008       Processing and Distribution Facility had difficulty timely
Processing and                                  processing Standard Mail, resulting in mail delays. We
Distribution                                    found there were an insufficient number of managers,
Facility                                        training was not provided on color code procedures, and
                                                employees did not practice first-in, first-out procedures for
                                                staging mail. We recommended management ensure that
                                                supervisors oversee mail processing, monitor delayed mail
                                                regularly, develop action plans to ensure timely processing
                                                of Standard Mail, develop and implement a mail arrival
                                                profile, and relocate accumulated mail transport equipment.
                                                Management agreed with our recommendations.
Timeliness of       NO-AR-      September 28,   This audit confirmed the Cardiss Collins P&DC had difficulty
Mail Processing     07-012          2007        timely processing mail resulting in untimely mail delivery
at the Chicago,                                 and service degradation. We found that the Cardiss Collins
Illinois Cardiss                                P&DC had inadequate supervision, accountability, and
Collins                                         planning. We recommended management provide
Processing and                                  consistent, high-quality supervision and training, improve
Distribution                                    planning, make employees accountable, and continue



                                                10
Timeliness of Mail Processing at the                                                     NO-AR-09-002
  San Juan Processing and Distribution Center


Center                                          monitoring and adjusting mail processing operations to
                                                ensure timely processing of mail. Management agreed with
                                                our recommendations.
Timeliness of       NO-AR-        February 9,   During the period July 2005 through May 2006, the Los
Mail Processing     07-001          2007        Angeles P&DC had difficulty timely processing mail,
at the Los                                      resulting in mail delays and service declines. The
Angeles,                                        excessive amount of delayed mail was due to the influx of
California                                      mail volume as a result of closing the Marina P&DC; the
Processing and                                  retrofitting of Flat Sorting Machines, which caused a
Distribution                                    temporary increase in machine downtime; and deficiencies
Center                                          in processing Periodicals and Standard Mail. We
                                                recommended management correct deficiencies in timely
                                                processing Periodicals and Standard Mail and continue
                                                monitoring and adjusting mail processing operations to
                                                ensure that all mail is processed in a timely manner.
                                                Management agreed with our recommendations.
Mail Processing     NO-AR-         August 6,    During the period December 2005 to December 2006, the
at the              07-007           2007       Southeastern PD&C had difficulty timely processing
Southeastern                                    Standard Mail. We found the Southeastern P&DC
Processing and                                  processed flat mail without using first-in, first-out
Distribution                                    procedures, handled Standard flat mail excessively due to
Center                                          poor trailer loading procedures, conducted inefficient
                                                opening operations for BMC sack mail, and only executed a
                                                partial contingency plan when flat mail volume exceeded
                                                sorting capacity. We recommended management
                                                implement procedures for sending mail to other facilities for
                                                final processing when volume at the Southeastern P&DC
                                                exceeded capacity and instruct plant managers to process
                                                mail using the first-in, first-out method. Management
                                                agreed with our recommendations.




                                                11
        Timeliness of Mail Processing at the                                                            NO-AR-09-002
          San Juan Processing and Distribution Center


                                       APPENDIX B: DELAYED MAIL TRENDS

        We determined the trends of delayed mail by class. We pulled delayed mail volumes
        for FYs 2005 through 2008 year-to-date (YTD), which was August 31, 2008. Table 1
        shows that from FYs 2006 to 2007 the San Juan P&DC had delayed mail increases of
        59 percent for FCM and 71 percent for Periodicals.

        We compared the amount of delayed mail by class for all three quarters in FY 2008 and
        determined the percentage of mail that was delayed from Quarter 1 to Quarter 3.
        Table 2 displays the amount of mail by class that was delayed by quarter in FY 2008.

                                         Table 1: Delayed Mail Trends

                                  Priority         FCM          Periodicals        Standard    Packages            Total
FY 2005                            15,891        2,269,669        348,071      3,821,979            0           6,455,610
FY 2006                                 0        5,869,815      3,816,373     14,544,330            0          24,230,518
FY 2007                           110,793        9,314,452      6,537,453     12,082,083            0          28,044,781
FY 2008 YTD                       149,734        2,616,895      3,447,157       7,009,350           0          13,223,136

Change FYs 05 to 06               -100%           159%             996%             281%                           275%
Change FYs 06 to 07                                59%              71%             -17%                            16%
Change FYs 07 to 08 YTD            35%            -72%             -47%             -42%                           -53%


                   Table 2: Percentage of Mail Delayed in Three Quarters of FY 2008


                                      Priority          FCM          Periodicals        Standard        Packages

        FY 2008 QTR 1                 72,433        1,407,905        1,475,450          3,977,675          0

        FY 2008 QTR 2                 63,100        1,038,402        1,242,816          2,008,082          0

        FY 2008 QTR 3                  9,016         134,601          552,144            934,830           0

        Change from QTRs 1 to 3      -87.55%         -90.44%          -62.58%            -76.50%         0.00%




                                                              12
Timeliness of Mail Processing at the                                                NO-AR-09-002
  San Juan Processing and Distribution Center


                 APPENDIX C: COMPARISON TO SIMILAR-SIZE SITES

We compared the San Juan P&DC’s delayed mail to other similarly sized sites (Group 4
plants). There are a total of 53 plants in Group 4. The charts and graphs below
benchmark the San Juan P&DC’s performance. From FYs 2006 to 2007, the amount of
delayed mail for San Juan increased by 15.7 percent, while similarly sized sites reduced
their volume by 15.2 percent (see Table 3). For the last three FYs, the San Juan P&DC
has ranked in the bottom quartile for the amount of delayed mail (see Table 4).
Additionally, for FY 2007, we compared performance by class of mail (see Table 5).

                      Table 3: Percentage of Change in Delayed Mail

                                        Percent of Change
                                             Group 4                   San Juan P&DC
FY 2005 to 2006                                 22.1                        275.3
FY 2006 to 2007                                 -15.2                        15.7
FY 2007 to 2008 (YTD)                           -36.8                       -52.8

               Table 4: San Juan Ranking of the Amount of Delayed Mail

                                     San Juan P&DC Ranking

FY 2005                                                           25 out of 53
FY 2006                                                           43 out of 53
FY 2007                                                           48 out of 53
FY 2008 (YTD)                                                     45 out of 53

                    Table 5: San Juan P&DC Ranking by Class of Mail


                                      FY 2007 Rankings

                          Priority                      49 out of 53

                     First-Class Mail                   52 out of 53

                        Periodicals                     53 out of 53

                      Standard Mail                     42 out of 53




                                                 13
Timeliness of Mail Processing at the                                              NO-AR-09-002
  San Juan Processing and Distribution Center


                             APPENDIX D: MACHINE CAPACITY

Automated Flat Sorter Machine 100

The San Juan P&DC generally had sufficient machine capacity but could better use this
capacity to process its mail in a timely manner. To illustrate, we pulled EOR reports and
Machine Summary Reports for the AFSM 100 operation. We also compared the AFSM
100 productivity level to national levels.

The AFSM 100 operated at a productivity rate lower than the national average. Web
Management Operating Data System (WebMODS) reports for the first three quarters of
FY 2008 revealed that the San Juan P&DC’s productivity was 1,029 PPH compared to
the national average of 1,465 (see Table 6). The P&DC’s performance concerning
earned hours was also lower than the national average.

On average, the AFSM 100 operated an average of 11 hours a day versus the goal of
20 hours (see Table 7). Increasing use of the machine at peak volume periods would
allow for a decrease in delayed mail.

                               Table 6: AFSM 100 Productivity

                                                Productivity
               San Juan P&DC                                   National Average
                   1,029 PPH                                     1,465 PPH

                Earned Hour Achievement – Breakthrough Productivity Index
               San Juan P&DC                                   National Average
                     50.9%                                          78.5%




                                                     14
Timeliness of Mail Processing at the                                              NO-AR-09-002
  San Juan Processing and Distribution Center


                               Table 7: AFSM End-Of-Run Data



       Machine Hours

                 11             Hours a Day

                 76             Hours per Week

              146,126           Pieces per Day

             1,022,884          Pieces per Week

              13,512            Pieces per Machine Hour

Small Parcel Bundle Sorter

The SPBS operated at a productivity rate higher than the national average. WebMODS
reports for the first three quarters of FY 2008 revealed that the San Juan P&DC’s
productivity was 295 PPH compared to the national average of 267 (see Table 8). The
P&DC’s performance concerning earned hours was also higher than the national
average.

On average, the SPBS operated an average of 13.5 hours a day versus the goal of
20 hours (see Table 9). Increasing use of the machine at peak volume periods would
increase processing capacity, allowing for a decrease in delayed mail.

                                  Table 8: SPBS Productivity

                                                Productivity
               San Juan P&DC                                   National Average
                    295 PPH                                       267 PPH

                Earned Hour Achievement – Breakthrough Productivity Index
               San Juan P&DC                                   National Average
                      82.1%                                         74.4%




                                                     15
Timeliness of Mail Processing at the                           NO-AR-09-002
  San Juan Processing and Distribution Center



                               Table 9: SPBS End-Of-Run Data


      Machine Hours

              13.5           Hours a Day

              94.5           Hours per Week

            28,496           Pieces per Day

           199,475           Pieces per Week

             2,106           Pieces per Machine Hour




                                                16
Timeliness of Mail Processing at the                                        NO-AR-09-002
  San Juan Processing and Distribution Center


                                APPENDIX E: DAMAGED MAIL

We observed the Universal Sorter Machine damaging parcels as the packages moved
through the conveyor system. This contributed to mail delays since these parcels
needed to be repaired. The majority of the damage took place at the drop-off sections.
See Pictures 1 and 2.

Picture 1: Mail Damaged While Dropping Onto a Conveyor System




Picture 2: Mail Damaged After Going Through a Drop-Off Point on a Conveyor
System




                                                17
Timeliness of Mail Processing at the                                      NO-AR-09-002
  San Juan Processing and Distribution Center


Once the mail is damaged on the Universal Sorter Machine, it must go to a separate
operation for repair. Pictures 3 and 4 show damaged mail waiting for repair.

Picture 3: Mail Waiting for Repair after Being Damaged on Universal Sorter
Machine




Picture 4: Mail Waiting for Repair after Being Damaged on Universal Sorter
Machine




                                                18
Timeliness of Mail Processing at the                                      NO-AR-09-002
  San Juan Processing and Distribution Center


                              APPENDIX F: MISDIRECTED MAIL

During observations, we found mail that had been directed to the wrong island.
Picture 5 shows a St. Thomas placard which means the mail will be sent to St. Thomas,
when in fact it was supposed to be sent to St. Croix. Some mail containers were
delayed for over a week before they were transported to the correct destination (see
Picture 6).

                            Picture 5: Placard Attached to One of
                            Three Missent Pallets of St. Croix Mail




                                                19
Timeliness of Mail Processing at the                                NO-AR-09-002
  San Juan Processing and Distribution Center


   Picture 6: Picture Taken on a Monday and Transportation Was Not Available
                           Until the Following Monday




                                                20
Timeliness of Mail Processing at the                                              NO-AR-09-002
  San Juan Processing and Distribution Center


                                  APPENDIX G: LOCAL MAIL

We benchmarked how collection mail from the USVI is processed in other areas with
similar geographical features. We found that other U.S. Territories process local letters
at their respective locations. In contrast, the USVI flies letter mail that is going from one
address to another address in the same city or on the same island to the San Juan
P&DC for cancellation and distribution and the P&DC returns it for delivery the following
day. Table 10 compares how collection mail is processed in the USVI, Guam, and
American Samoa. Table 11 shows the steps to process local mail in the USVI, which
results in excessive handlings.

              Table 10: Comparison of How Collection Mail is Processed

                                                                             American
                                                     USVI       Guam
                                                                               Samoa
Population                                      109,840        175,877    64,827
Cancel and process their own local              No             Yes        Yes
letter mail
Use of BDS                                      Yes            No         No
Approximate volume of daily local letter        3,300          4,000      2,500
mail


                      Table 11: Steps Taken for Mail That Originates
                           and Destinates on the Virgin Islands

    ¾   Collected from all USVI post offices
    ¾   Transported to the St. Thomas and St. Croix AMFs
    ¾   Transported by airplane to the San Juan AMF
    ¾   Transported to the San Juan P&DC via truck
    ¾   Cancelled and sorted at the San Juan P&DC
    ¾   Returned by truck to the San Juan AMF
    ¾   Transported by airplane to the St. Thomas and St. Croix AMFs
    ¾   Transported to all USVI post offices
    ¾   Separated by carriers
    ¾   Delivered to customers




                                                21
Timeliness of Mail Processing at the                                           NO-AR-09-002
  San Juan Processing and Distribution Center


                            APPENDIX H: INTERNAL CONTROLS

Opportunities existed to improve internal controls over identifying and reporting delayed
mail. These improvements would enable managers to better plan mail processing
operations to minimize mail delays. In some instances, not properly completing color
codes prohibited accurate reporting and made adherence to processing mail on a first-
in, first-out basis difficult (see Picture 7). Also, Periodicals were improperly staged and
tagged as Standard Mail. Standard Mail does not receive the same expedited treatment
as Periodicals, thus contributing to Periodicals delays (see Pictures 8 and 9).

We also found numerous instances where mail was not recorded properly for the
WebMCRS report, making it difficult for managers to develop plans to ensure timely
mail processing. For example, we found mail not recorded as delayed, mail left in the
work location past the mail clearance time, and mail that arrived at the plant past the
day of intended delivery (see Pictures 10 and 11). Additionally, we found Flat Sorter
Mail 1000 rejects not recorded as delayed mail (see Picture 12).

Picture 7: Color-Code Tag Did Not Indicate the Time of Arrival




                                                22
Timeliness of Mail Processing at the                        NO-AR-09-002
  San Juan Processing and Distribution Center


Picture 8: Periodicals Staged and Tagged as Standard Mail




Picture 9: Periodicals Staged and Tagged as Standard Mail




                                                23
Timeliness of Mail Processing at the                                      NO-AR-09-002
  San Juan Processing and Distribution Center


            Picture 10: Mail Left in Outgoing Manual Cases Past Clearance
                                   Time Not Recorded




          Picture 11: Mail Arrived at Plant Past the Day of Intended Delivery
                       Not Recorded – Received July 11, 2008




                                                24
Timeliness of Mail Processing at the                                 NO-AR-09-002
  San Juan Processing and Distribution Center


Picture 12: Flat Sorter Machine 1000 Rejects Not Recorded as Delayed Mail




                                                25
Timeliness of Mail Processing at the                        NO-AR-09-002
  San Juan Processing and Distribution Center


                        APPENDIX I: MANAGEMENT’S COMMENTS




                                                26
Timeliness of Mail Processing at the                 NO-AR-09-002
  San Juan Processing and Distribution Center




                                                27
Timeliness of Mail Processing at the                 NO-AR-09-002
  San Juan Processing and Distribution Center




                                                28
Timeliness of Mail Processing at the                 NO-AR-09-002
  San Juan Processing and Distribution Center




                                                29
